                 Taxpayers Experienced Improved Access
                     to Toll-Free Telephone Services
                      During the 2004 Filing Season

                                    August 2004

                       Reference Number: 2004-30-144




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       August 9, 2004


       MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION
                      COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - Taxpayers Experienced Improved Access to
                                     Toll-Free Telephone Services During the 2004 Filing Season
                                     (Audit # 200430005)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       ability to provide taxpayers with effective and efficient access to the toll-free telephone
       system during the 2004 Filing Season.1 We performed this audit as part of the Treasury
       Inspector General for Tax Administration’s (TIGTA) continuing annual reviews2 of the
       performance of key customer service programs.
       In summary, the IRS provided taxpayers with effective and improved access to its
       toll-free telephone system during the 2004 Filing Season. The IRS provided over
       872,000 more toll-free telephone services3 to taxpayers during the 2004 Filing Season
       than in the prior year. An improved taxpayer experience in calling the IRS toll-free
       telephone system during the 2004 Filing Season was evident in many of the measures
       the IRS uses to monitor its call center operations. First, callers were able to connect
       with the IRS more easily. When compared to the prior year, the total number of



       1
         The filing season is the period from January through mid-April when most individual income tax returns are filed.
       All references to the 2004 Filing Season made in this report, unless otherwise specified, are for the period from
       January 1 to April 17, 2004.
       2
         Separate TIGTA reviews are being performed to evaluate the quality of services provided to taxpayers who called
       the toll-free telephone system (Audit # 200440038; draft report issued July 12, 2004) and to evaluate a feasibility
       study on the outsourcing of tax law calls (Audit # 200330043).
       3
         The IRS defines a “service” as any call received by a Customer Service Representative regardless of whether it is
       an original call attempt or a transferred call.
                                                        2

“blocked”4 calls was reduced from nearly 1.3 million in 2003 to about 784,000 in 2004 –
an improvement of more than 39 percent. Second, callers wanting to speak with a
Customer Service Representative (CSR) received better service. The CSR Level of
Service, which is the IRS’ primary measure of providing callers with access to a live
assistor when requested, increased from 82.4 percent in 2003 to 84.7 percent in 2004.
Finally, the measures associated with the speed of handling calls showed
improvements. In particular, callers with tax law questions received faster service
because the Average Speed of Answer5 was reduced from 196 seconds to 164 seconds
and the Assistor Response Level (ARL)6 was increased from 56.9 percent to
64.0 percent. As a validation of these accomplishments, surveys completed by callers
to the IRS toll-free telephone system during the 2004 Filing Season showed that the
vast majority of customers were satisfied with the services they received.
The IRS also realized productivity and efficiency gains in providing toll-free telephone
services during the 2004 Filing Season. For example, the CSRs answered
106.5 percent of the volume of the prior year calls while using only 101.5 percent of the
amount of resources used in the prior year. This increased the number of calls
answered per Full-Time Equivalent (FTE)7 by 4.9 percent.
Although the IRS has continued to improve taxpayer access to its toll-free telephone
services, some opportunities remain to further enhance the taxpayer experience in
calling the IRS for assistance. One of these is improving management’s ability to
determine why more than 6.7 million taxpayers disconnected (i.e., hung up) during the
2004 Filing Season before their calls reached the CSR queue. This type of call, which
the IRS refers to as a primary abandon, increased by more than 1.3 million during the
2004 Filing Season and represented 13.5 percent of total call attempts to the toll-free
telephone system.
Second, the IRS needs a more effective and efficient methodology for forecasting call
demand and scheduling the resources to meet the forecasted demand. Although most
call centers in the private sector have had automated workforce management (WFM)8
tools for years, the IRS has continued to rely on an essentially manual process for its
workload planning. The IRS is currently using a software product at the site level with
some success to match staffing requirements with individual CSR tours of duty.
However, the IRS has been unable to use this product to develop forecasts and staffing

4
  A blocked call is one that cannot be connected immediately because either no circuit is available at the time the
call arrives (i.e., the caller receives a busy signal) or the system is programmed to block calls from entering the
queue when the queue backs up beyond a defined threshold (i.e., the caller receives a recorded announcement to call
back at a later time). A queue holds callers until a CSR becomes available.
5
  A measure of the average number of seconds that customers who did not abandon their calls waited in a queue
before receiving service.
6
  The IRS defines the ARL as the total number of “services” delivered within the threshold of 30 seconds divided by
the total services handled.
7
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For Fiscal Year 2004, 1 FTE is equal to 2,096 staff hours.
8
  Software systems that are used to forecast incoming call demand, calculate staffing requirements, organize
schedules, and track real-time performance of individuals and groups.
                                                            3

requirements for the Enterprise. The forecasting of call demand must be accurate at
each CSR skill level and at each half-hour call arrival interval. Given the massive
volume of calls the IRS receives and the wide range of telephone assistance it is
expected to provide, even small forecasting inaccuracies can cause significant
problems with the IRS’ ability to schedule resources to effectively and efficiently handle
call demand.
Finally, updated circuitry planning standards could help to prevent or reduce infrequent
capacity problems. When high call volume occurs in specific applications or at certain
call sites, the telephone circuits9 can become full and additional calls may be blocked
from entering the system. Although IRS management advised us that these capacity
problems occurred only in parts of a few days at some call sites during the 2004 Filing
Season, callers may have been inconvenienced when this occurred because they
received a recorded message that all circuits were busy and that they should call back
at another time to receive assistance.
The IRS recognizes these improvement opportunities and has plans to address each of
them. These plans include replacing the network prompter with an Internet Service
Node (ISN) that will allow the IRS to capture data on the points in the menu selection at
which callers disconnect; purchasing a WFM system to generate the staffing
requirements for the toll-free telephone system; and completing a circuitry analysis in
time for the IRS to install or remove circuits, as necessary, by the 2005 Filing Season.
We support these plans and recommended the Directors, Customer Account Services
(CAS), Small Business/Self-Employed (SB/SE) and Wage and Investment (W&I)
Divisions, take the steps necessary to ensure the acquisition of the ISN is a priority item
and, when installed, it is used to learn more about the causes of primary abandoned
calls so necessary changes to the menu scripts can be made or other appropriate
corrective actions can be taken. The Directors should also ensure an integrated WFM
system is implemented that includes workforce planning functionality at the Enterprise
and site levels. In addition, the Director, CAS, W&I Division, should ensure the current
circuitry analysis will lead to the development of a current standard for circuitry planning
that is updated whenever there are major changes to the toll-free telephone system that
could affect circuitry needs.
Management’s Response: Management agreed with each of our recommendations.
The Commissioner, W&I Division, provided a detailed response that was coordinated
with the office of the Commissioner, SB/SE Division. The IRS plans to fully deploy the
ISN in January 2005 and, after sufficient data are collected and analyzed, use it to first
identify the points at which customers abandon their calls and then initiate changes to
the system to improve the customer experience. The Commissioner advised that the
existing site-level WFM tool is being upgraded in November 2004 and that efforts are
underway to test an Enterprise-level WFM tool. If test results are successful, the IRS
plans to procure the product this fiscal year. The Commissioner stated the IRS is
targeting the testing and possible procurement of the additional integration tools during

9
    A circuit is a transmission path between two points in a network.
                                             4

Fiscal Year (FY) 2005. The IRS intends to have a fully integrated WFM system with
workforce planning functionality for the Enterprise by the conclusion of FY 2006.
Finally, the Commissioner stated the IRS is currently in the initial stages of developing a
circuitry standard. The IRS will finalize the standard after it has analyzed the extent to
which ISN implementation affects circuitry needs. In preparation for the 2005 Filing
Season, the IRS will increase circuitry on non-ISN product lines as needed to further
alleviate the possibility of infrequent circuitry capacity problems. Management’s
complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (215) 516-2341.
          Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                              During the 2004 Filing Season




                                                  Table of Contents


Background ............................................................................................... Page 1
Many Aspects of the Taxpayer Experience in Accessing
the Toll-Fee Telephone System Were Significantly Improved
During the 2004 Filing Season .................................................................. Page 2
More Detailed Information Is Needed About Why Millions of Taxpayers
Hang Up During the Menu Selection Process ........................................... Page 12
         Recommendation 1: ...................................................................... Page 15

Modifying the Processes for Workload Planning and Scheduling
Could Further Improve Taxpayer Access and Increase Efficiency ............ Page 16
         Recommendation 2: ...................................................................... Page 20

Updated Circuitry Planning Standards Could Help to Alleviate
Infrequent Capacity Problems ................................................................... Page 20
         Recommendation 3: ...................................................................... Page 22

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 24
Appendix II – Major Contributors to This Report........................................ Page 26
Appendix III – Report Distribution List ....................................................... Page 27
Appendix IV – Management’s Response to the Draft Report .................... Page 28
       Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                           During the 2004 Filing Season

                               The Internal Revenue Service’s (IRS) mission is to “provide
Background
                               America’s taxpayers top quality service by helping them
                               understand and meet their tax responsibilities and by
                               applying the tax law with integrity and fairness to all.” All
                               efforts to help taxpayers understand and meet their tax
                               responsibilities are critical to this mission.
                               The IRS toll-free telephone system is a primary contact
                               method that millions of taxpayers choose when seeking
                               answers to tax law questions or trying to resolve account
                               issues. Taxpayers who call the IRS can receive automated
                               services (i.e., recorded information and interactive
                               applications1) or choose to speak with a live assistor. The
                               IRS has 26 call centers located throughout the United States
                               and Puerto Rico that are staffed with Customer Service
                               Representatives (CSR) who are trained to answer taxpayer
                               questions involving tax law2 and other related tax account
                               conditions such as refunds, balance due billing activity, and
                               changes to the amount of tax owed. During the 2004 Filing
                               Season,3 the IRS employed more than 14,000 CSRs to
                               answer the telephones.
                               The Customer Account Services (CAS) functions within the
                               Small Business/Self-Employed (SB/SE) and Wage and
                               Investment (W&I) Divisions are responsible for managing
                               the IRS toll-free telephone system. The Joint Operations
                               Center (JOC) in Atlanta, Georgia, serves as the central
                               control organization for all of the IRS’ toll-free telephone
                               call routing. The JOC uses intelligent call management
                               software to control and route the calls to its call centers and
                               CSRs based on availability and skills. In addition, the JOC




                               1
                                 For callers using a touch-tone telephone, the Telephone Routing
                               Interactive System can provide automated refund status information,
                               permit callers to obtain a payoff amount for an outstanding balance due,
                               or enable callers to set up an installment agreement to settle a delinquent
                               tax debt.
                               2
                                 Only eight of the call centers handle tax law questions.
                               3
                                 The filing season is the period from January through mid-April when
                               most individual income tax returns are filed. All references to the
                               2004 Filing Season made in this report, unless otherwise specified, are
                               for the period from January 1 to April 17, 2004.
                                                                                                  Page 1
         Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                             During the 2004 Filing Season

                                 monitors the call centers for abnormally high queue times4
                                 and/or available CSRs, thus allowing it to take actions to
                                 modify routing scripts to balance the workload.
                                 Taxpayers called the IRS toll-free telephone system almost
                                 50 million5 times during the 2004 Filing Season. In
                                 addition, over 12.7 million calls were made to the IRS
                                 automated TeleTax system that provides recorded tax law
                                 and refund information.
                                 This review was performed at the JOC during the period
                                 January through April 2004. The audit was performed in
                                 accordance with Government Auditing Standards. The
                                 scope of this audit did not include the quality of toll-free
                                 telephone services.6 The performance data we evaluated
                                 were provided by IRS management and/or came from IRS
                                 management information systems. We did not verify the
                                 accuracy of these data. Detailed information on our audit
                                 objective, scope, and methodology is presented in
                                 Appendix I. Major contributors to the report are listed in
                                 Appendix II.
                                 During the 2004 Filing Season, the IRS provided taxpayers
Many Aspects of the Taxpayer
                                 with effective and improved access to its toll-free telephone
Experience in Accessing the
                                 system. This successful performance was evident in many
Toll-Free Telephone System
                                 of the measures the IRS uses to monitor its call center
Were Significantly Improved
                                 operations and in the customer satisfaction surveys
During the 2004 Filing Season
                                 completed by callers to the toll-free telephone system. The
                                 IRS also realized productivity and efficiency gains in



                                 4
                                   A queue holds callers until a CSR becomes available. Queue time is
                                 the amount of time a caller spends waiting for a CSR to become
                                 available.
                                 5
                                   These calls were to the suite of telephone lines that the IRS refers to as
                                 “CAS Toll Free.” Unless otherwise specified, all references made in
                                 this report to the toll-free telephone system performance data are for the
                                 CAS Toll Free lines through April 17, 2004, and comparable prior year
                                 dates. These lines include 1040, 8815, 4262, 0105, 0115, 0922, 0582,
                                 1054, 2065, 8482, 4059, 8374, 4933, 5227, 0433, 1778, 4259, and 4778.
                                 6
                                   The Treasury Inspector General for Tax Administration is performing
                                 separate reviews to evaluate the quality of toll-free telephone services
                                 provided to taxpayers during the 2004 Filing Season
                                 (Audit # 200440038; draft report issued July 12, 2004) and to evaluate
                                 a feasibility study on the outsourcing of tax law calls
                                 (Audit # 200330043).
                                                                                                     Page 2
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season

                        providing toll-free telephone services during the 2004 Filing
                        Season.
                        More taxpayers were served
                        Table 1 shows that the IRS provided over 872,000 more
                        toll-free telephone services7 to taxpayers during the
                        2004 Filing Season than in the prior year.
                            Table 1: Comparison of Toll-Free Telephone Services Provided
                                            2002 – 2004 Filing Seasons

                             CAS Toll-Free            2002            2003            2004
                            Automated              36,348,921      25,818,334      25,732,372
                            Services Provided
                            Assistor Services      18,748,935      17,599,403      18,557,661
                            Provided
                                  Totals           55,097,856      43,417,737      44,290,033
                        Source: IRS Enterprise Telephone Data Warehouse.

                        The “Automated Services Provided” from Table 1 excludes
                        two services the IRS implemented on its Internet web site
                        (www.irs.gov) in 2003 that likely relieved some demand for
                        toll-free telephone assistance in 2004. The first is an
                        Internet Refund Fact of Filing (IRFOF) application that
                        allows taxpayers to check the status of their tax refunds.
                        During the 2004 Filing Season, approximately 18.1 million
                        taxpayers accessed the IRFOF application, and 11.6 million
                        taxpayers successfully received refund status information.8
                        The second is an Internet site that provided information
                        about the Advance Child Tax Credit (ACTC). The Jobs and
                        Growth Tax Relief Reconciliation Act of 20039 provided
                        eligible taxpayers up to $400 in ACTC payments. More
                        than 25 million taxpayers received ACTC payments in



                        7
                          The IRS defines a “service” as any call received by a CSR regardless
                        of whether it is an original call attempt or a transferred call.
                        8
                          Taxpayers who access the IRFOF before their returns have been
                        processed or without having all of the necessary information
                        (e.g., refund amount) at their disposal will be unsuccessful in obtaining
                        refund status information. The IRFOF was not included in the scope of
                        this audit and is mentioned only to show that taxpayers have alternatives
                        to the toll-free telephone system for obtaining refund information.
                        9
                          Pub. L. No. 108-27, 117 Stat. 752.
                                                                                         Page 3
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season

                        2003. Approximately 10.6 million taxpayers accessed this
                        Internet site during the 2004 Filing Season.
                        Many taxpayers received faster and better access to the
                        system
                        Despite the increased demand for services during the
                        2004 Filing Season, many aspects of the taxpayer
                        experience were improved during calls to the IRS for
                        assistance. For example, Table 2 shows the CSR Level of
                        Service (LOS),10 the IRS’ primary measure of providing
                        callers with access to a live assistor, increased by
                        2.3 percentage points during the 2004 Filing Season.
                                       Table 2: Comparison of the CSR LOS
                                             2002 – 2004 Filing Seasons

                             CAS Toll-Free            2002            2003           2004
                         CSR LOS                      66.6%          82.4%           84.7%
                        Source: IRS Enterprise Telephone Data Warehouse.

                        In addition, Table 3 shows other diagnostic measures the
                        IRS uses to gauge the performance of its toll-free telephone
                        system. In particular, these measures show that callers with
                        tax law questions received faster service in 2004.




                        10
                           In an audit report on the 2002 Filing Season, Significant Efforts Have
                        Been Made to Provide Taxpayers Better Access to the Toll-Free
                        Telephone System, but Additional Improvements Are Needed (Reference
                        Number 2003-30-001, dated October 2002), we expressed concern with
                        the validity of the CSR LOS because it excluded primary abandons
                        (i.e., calls that disconnect before reaching the CSR queue) and,
                        therefore, may not accurately portray the ease with which taxpayers gain
                        access to a CSR.


                                                                                         Page 4
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season

                                 Table 3: Comparison of Various Performance Measures
                                              2002 – 2004 Filing Seasons
                                            2002     2003     2004     2002      2003     2004
                         CAS Toll-Free          Tax Law Calls                 Account Calls
                         Average Speed
                         of Answer
                         (ASA)11
                         (seconds)           160     196       164      273       142      205
                         Assistor
                         Response
                         Level (ARL)12     70.2%    56.9%    64.0%     50.7%     56.0%    44.1%
                         Secondary
                         Abandons13        11.2%    10.3%     7.0%     12.7%     6.7%     10.4%
                         Transfer Rate     38.9%    30.0%    25.5%     12.4%     11.1%    10.2%
                        Source: IRS Enterprise Telephone Data Warehouse.

                        In comparison with prior years, the data in Table 3 show
                        that the IRS:
                             •     Provided faster service to callers with tax law
                                   questions by improving the ASA by 32 seconds, or
                                   16.3 percent. Although the ASA for account calls
                                   increased in 2004,14 it was still significantly better
                                   than it was in 2002.
                             •     Reduced the waiting time in the queue for a greater
                                   percentage of callers with tax law questions by
                                   improving the ARL by over 7 percentage points.
                                   However, the ARL for callers with account
                                   questions was below the levels achieved in Filing
                                   Seasons 2002 and 2003.


                        11
                           A measure of the average number of seconds that customers who did
                        not abandon their calls waited in a queue before receiving service.
                        12
                           The IRS defines the ARL as the total number of “services” delivered
                        within the threshold of 30 seconds divided by the total services handled.
                        13
                           A call that reaches the CSR queue and then disconnects.
                        14
                           The volume of account calls increased greatly in 2004 when the IRS
                        provided almost 1.2 million more account services, an increase of
                        10.5 percent, in comparison to 2003. In all likelihood, the high volume
                        of account calls was largely responsible for the lower performance in
                        some account measures. When account services are viewed in this
                        perspective, the IRS did a commendable job in serving taxpayers with
                        account-related questions.
                                                                                         Page 5
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season

                            •   Reduced the rate of tax law calls that were
                                abandoned while waiting in the queue for assistance
                                by 32 percent. This means that fewer taxpayers
                                became tired of waiting and hung up in 2004.
                                Although the secondary abandon rate for account
                                calls in the queue increased in 2004, it was still
                                significantly lower than it was in 2002.
                            •   Reduced the transfer rate for tax law calls by
                                4.5 percentage points and reduced the transfer rate
                                for account calls by almost 1 percentage point.
                                Reducing call transfers lowers burden by having
                                callers spend less time on the telephone. The IRS’
                                cost to handle a call is also lowered when the call is
                                completed by the first CSR it was sent to rather than
                                transferred.
                        Table 4 shows that the improved access to the toll-free
                        telephone system during the 2004 Filing Season is also
                        reflected in significant reductions in the number of calls to
                        the IRS that were “blocked.” A blocked call is one that
                        cannot be connected immediately because either no circuit
                        is available at the time the call arrives (i.e., the caller
                        receives a busy signal) or the system is programmed to
                        block calls from entering the queue when the queue backs
                        up beyond a defined threshold (i.e., the caller receives a
                        recorded announcement to call back at a later time). The
                        IRS refers to the latter type of blocked call as a “courtesy
                        disconnect.”




                                                                                Page 6
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season

                                   Table 4: Comparison of the Number of Blocked Calls
                                               2002 – 2004 Filing Seasons
                                   CAS Toll-Free             2002          2003        2004
                             Busy Signals                 3,665,180      228,507      147,200
                                                    15
                             Courtesy Disconnects                        832,608      591,936
                             Selected Expanded Access
                             (SEA)16                      2,924,830      228,507       44,939
                               Total Blocked Calls17      6,590,010     1,289,622     784,075
                        Source: IRS Enterprise Telephone Data Warehouse.

                        The data in Table 4 show that, from the 2003 Filing Season
                        to the 2004 Filing Season, the IRS achieved a:
                               •    Decrease in busy signals of 35.6 percent.
                               •    Decrease in courtesy disconnects of 28.9 percent.
                               •    Decrease in SEA of 80.3 percent.
                               •    Decrease in total blocked calls of 39.2 percent.
                        Customer satisfaction surveys continued to show highly
                        positive results18
                        From January through March 2004, 94 percent of the callers
                        to the IRS toll-free telephone system that completed
                        customer satisfaction surveys19 regarding their experience
                        gave the IRS a rating of 4 (“mostly satisfied”) or
                        5 (“completely satisfied”) on a 5-point scale.20 The overall
                        satisfaction rating was 4.65 for the SB/SE Division and
                        4.66 for the W&I Division. Only 2 percent of the callers in
                        each Division were dissatisfied (i.e., gave a rating of 1 or 2).



                        15
                           Courtesy disconnects were introduced in Fiscal Year (FY) 2003.
                        16
                           The SEA is a system that allows callers to receive automated services,
                        in lieu of a busy signal, during periods of peak demand.
                        17
                           Totals do not include 44,000 blocked calls to the TeleTax system.
                        18
                           The SB/SE Division data are based on a draft of the survey report.
                        19
                           The W&I and SB/SE Divisions are jointly responsible for managing
                        the IRS toll-free telephone system. The W&I Division has 18 call sites
                        and the SB/SE Division has 8 call sites. The W&I and SB/SE Divisions
                        conduct separate customer satisfaction surveys on a quarterly basis.
                        20
                           The only taxpayers surveyed are a sample of those that complete their
                        interactions with the IRS.
                                                                                         Page 7
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season

                        These customer satisfaction results represented a slight
                        improvement over the positive results obtained during the
                        2003 Filing Season. For the same 3-month period in 2003,
                        94 percent of the callers surveyed for the W&I Division had
                        given the IRS a rating of 4 or 5 and an overall satisfaction
                        rating of 4.63. During the same period, 92 percent of the
                        callers surveyed for the SB/SE Division gave the IRS a
                        rating of 4 or 5 and the overall satisfaction rating was 4.55.
                        Three percent of the callers surveyed for both Divisions in
                        2003 were dissatisfied (i.e., gave a rating of 1 or 2) with
                        their experience.
                        Productivity and efficiency gains were realized
                        Table 5 shows the IRS realized substantial productivity and
                        efficiency gains during the 2004 Filing Season.
                                 Table 5: Comparison of Calls Answered per Full-Time
                                   Equivalent (FTE)21 and Assistor Availability Rates
                                               2002 – 2004 Filing Seasons
                             CAS Toll-Free              2002            2003             2004
                         CSR Calls                   14,798,853      14,986,839      15,955,445
                         Answered
                         Total FTEs22                    2,861.8          2,880.2         2,923.5
                         CSR Calls                       5,171.2          5,203.4         5,457.7
                         Answered Per Total
                         FTEs
                         Assistor Availability          11.0%           11.2%           9.0%
                         Rate23
                        Source: IRS Enterprise Telephone Data Warehouse .

                        The data in Table 5 show the IRS:
                             •    Answered 106.5 percent of the volume of prior year
                                  calls while using only 101.5 percent of the amount



                        21
                           A measure of labor hours in which 1 FTE is equal to 8 hours
                        multiplied by the number of compensable days in a particular fiscal
                        year. For FY 2004, 1 FTE is equal to 2,096 staff hours.
                        22
                           Total FTEs includes both direct hours and overhead.
                        23
                           Assistor Availability is the percentage of time that CSRs are available
                        to take calls but no calls are coming in for the specific skills of the
                        CSRs.
                                                                                          Page 8
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season

                                 of resources used in the prior year and increased the
                                 number of calls answered per FTE by 4.9 percent.
                             •   Lowered overall Assistor Availability rates by
                                 19.6 percent. When Assistor Availability is too
                                 high, the CSRs’ time is not being productively used
                                 and the cost of providing toll-free telephone services
                                 is increased.
                        The IRS implemented new initiatives to improve access
                        For 2004, the IRS implemented a number of initiatives to
                        improve the performance of the toll-free telephone system.
                        Some of the initiatives identified by the IRS as providing
                        notable benefits include:
                             •   Application24 Consolidation: In an effort to reduce
                                 Assistor Availability, both English and Spanish
                                 applications were consolidated for more efficient
                                 call processing. Similar applications were combined
                                 to minimize the number of CSR groups, ultimately
                                 reducing Availability in those CSR groups for which
                                 the service was comparable. For example,
                                 Application 15 (W&I Refund) was consolidated with
                                 Application 20 (W&I IMF25 Accounts).
                             •   Retirement of Older Voice Response
                                 Units (VRU26): The IRS retired its older VRU
                                 equipment in January 2004. The automated
                                 applications previously hosted by the old VRUs
                                 were moved to a new platform, resulting in enhanced
                                 automation capabilities. These changes included:
                                     •   Eliminating redundant touch-tone telephone
                                         refund applications.



                        24
                           Applications are specified account or tax law topic areas. There are
                        approximately 22 English and Spanish tax law applications.
                        25
                           IMF, or Individual Master File, refers to the IRS database that
                        maintains transactions or records of individual tax accounts.
                        26
                           A VRU responds to caller-entered digits or speech recognition in
                        much the same way that a conventional computer responds to keystrokes
                        or clicks of a mouse. When the VRU is integrated with database
                        computers, callers can interact with the databases to check current
                        information.
                                                                                       Page 9
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season

                                     •    Providing a common voice for all VRU
                                          applications.
                                     •    Enhancing interactive applications to allow
                                          faster service for work that can be done in an
                                          automated environment.
                                     •    Increasing automated support for rotary
                                          telephone callers.
                                     •    Increasing automated support for
                                          Spanish-speaking callers.
                                     •    Reducing the occurrence of busy signals.
                             •   Refund Routing Changes: The IRS provided a
                                 network announcement on the 800-829-1040 line
                                 advising taxpayers with questions regarding refund
                                 issues to either check the IRS Internet site
                                 (www.irs.gov) or call the Refund Hotline number
                                 (800-829-1954). Last year, the same type of call
                                 was automatically transferred to the 1954 number.
                                 This change was made to prevent refund calls from
                                 tying up the 1040 line so taxpayers with account or
                                 tax law questions have a better opportunity to
                                 promptly receive service.
                             •   Elimination of the Employer Identification
                                 Number (EIN) Product Line:27 The EIN dialed
                                 number (866-816-2065) was discontinued in
                                 October 2003. Customers calling the 2065 number
                                 were referred to the Business and Specialty Hotline
                                 (800-829-4933). This change resulted in two major
                                 benefits:
                                     •    From a taxpayer perspective, the
                                          discontinuance of the 2065 line provided a
                                          single dialed number for the customer’s
                                          business needs. The EIN prompt on the
                                          4933 number is the initial choice for the



                        27
                          A toll-free telephone line used to apply for a taxpayer identification
                        number issued by the IRS to sole proprietorships, corporations,
                        partnerships, and other business entities for tax filing and reporting
                        purposes.
                                                                                         Page 10
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season

                                       customer, mirroring the ease of access
                                       previously provided on the 2065 number.
                                   •   Circuitry access was also improved as a
                                       result of the consolidation of services. An
                                       increase in circuitry ensured all customers
                                       received equal service whereas, previously,
                                       callers to the 2065 line were frequently given
                                       a Variable Call Redirection message during
                                       periods of high call volumes due to limited
                                       circuitry resources associated with the
                                       2065 number.
                            •   Work Scheduling/Staffing Process Improvement:
                                The scheduling process was taken to a more finite
                                level of detail through continued improvement in the
                                forecasting process. By using application-level
                                historical data to project demand, the IRS was able
                                to use detailed historical data to enhance service
                                level projections and better target its resource needs,
                                apply application-specific assumptions, more
                                accurately reproject service-level scenarios based on
                                assumptions, and incorporate shared Business
                                Operating Division (BOD) workload assumptions
                                with more precision. Additionally, the IRS was able
                                to enhance the matching of workload distribution to
                                available resources through increased collaboration
                                with BOD representatives.
                                The staffing process was improved by training the
                                less experienced assistors on more complex topics,
                                to increase their skill base for better resource
                                deployment. For example, those assistors who were
                                working Basic Tax Law applications were trained in
                                Advanced Tax Law topics such as Pensions,
                                Individual Retirement Accounts, or Small Business
                                issues. Assistors working Basic Account
                                applications were trained to assist callers with topics
                                included in Advanced Account applications.




                                                                               Page 11
        Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                            During the 2004 Filing Season

                                Executive involvement, via biweekly telephone
                                conferences, provided useful guidance in responding to
                                problem situations
                                Throughout the filing season, the JOC conducted biweekly
                                executive telephone conferences to discuss the status of the
                                toll-free telephone operations. The attendees included
                                executives and other representatives from both the SB/SE
                                and W&I Divisions responsible for toll-free telephone
                                operations, the Director of the JOC, and various JOC staff
                                members. The conferences kept the executives regularly
                                apprised of how well the toll-free telephone system was
                                performing. They also provided a forum through which to
                                raise any technical, operational, and workload management
                                concerns to the executive level and for the executives to
                                obtain information from the staff level.
                                Each filing season, millions of taxpayers who call the IRS
More Detailed Information Is
                                disconnect (i.e., hang up) early in their calls prior to
Needed About Why Millions of
                                receiving assistance. The IRS refers to calls that disconnect
Taxpayers Hang Up During the
                                before reaching the CSR queue as primary abandons.28
Menu Selection Process
                                Primary abandons may occur when callers 1) realize they
                                dialed the wrong number and immediately disconnect,
                                2) disconnect before completing an automated routing
                                script, or 3) choose a menu option to use an automated
                                service but disconnect before completing the service. In
                                completing customer satisfaction surveys during the
                                2004 Filing Season, callers to the IRS toll-free telephone
                                system identified “finding the appropriate menu choice” as
                                the IRS’ top improvement opportunity.29
                                Table 6 shows the IRS experienced 6.7 million primary
                                abandoned calls on its CAS Toll-Free telephone lines during
                                the 2004 Filing Season.




                                28
                                   A call that reaches the CSR queue and then disconnects is classified
                                as a secondary abandon.
                                29
                                   IRS Customer Satisfaction Survey, Toll-Free W&I National Report,
                                Covering January through March 2004.
                                                                                                Page 12
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season

                                     Table 6: Comparison of Primary Abandons
                                             2001 – 2004 Filing Seasons
                               CAS            2001           2002          2003          2004
                             Toll-Free
                         Primary             4,298,616   10,593,981      5,402,495     6,720,870
                         Abandons
                         (PA)
                         Total Attempts    46,917,350    55,450,114     42,054,628    49,609,768
                         (TA)
                         Percentage of        9.2%          19.1%         12.8%         13.5%
                         PAs to TAs
                        Source: IRS Weekly Enterprise Snapshot and Table Snapshot Reports.

                        Primary abandons can lead to taxpayers having to call back
                        or possibly not receiving assistance at all because they find
                        the toll-free telephone system too difficult to use. When
                        taxpayers have these types of difficulties in attempting to
                        contact the IRS, the IRS’ strategic goal of providing
                        top-quality service to each taxpayer in each interaction is
                        not being met. Consequently, the identification and
                        correction of the cause for high levels of primary abandoned
                        calls is necessary.
                        While Table 6 shows that primary abandons, when viewed
                        as a percentage of total call attempts, decreased in the 2003
                        and 2004 Filing Seasons when compared to the 2002 Filing
                        Season, the primary abandon rates were still significantly
                        higher than that experienced during the 2001 Filing Season.
                        In addition, the primary abandon rate of 13.5 percent
                        experienced during the 2004 Filing Season was significantly
                        higher than the 3 to 5 percent call abandon rate30 that is
                        considered optimum for the call center industry.31
                        The IRS has long recognized that it has a problem with a
                        high number of primary abandons. The Customer


                        30
                           In reviewing a draft of this report, IRS management stated that call
                        center industry standards are often based on “for profit” operations and
                        that comparisons to Federal Government call center operations are not
                        appropriate. Management also stated that varying measure
                        computations and component definitions used throughout the public
                        sector place the validity of such a comparison in question.
                        31
                           Jon Anton, Call Center Management by the Numbers (West
                        Lafayette: Purdue University Press, 1997), 30.
                                                                                        Page 13
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season

                        Communications Project 2001 (CC2001),32 implemented in
                        August 2001, included a primary design objective of
                        reducing network prompter abandons.33 As Table 6 showed,
                        instead of reducing primary abandons, the CC2001 caused
                        them to increase during the 2002 Filing Season. According
                        to an internal IRS document:34
                                The abandon rates were improved with intensive
                                effort on the part of IRS and . . .[contractor]
                                personnel, but the effort highlighted severe
                                shortcomings with the MIS [Management
                                Information System] provided by the . . .[contractor]
                                Network Prompter platform.
                                Additional improvements were made through the
                                CCCO [Customer Contact Center Optimization] and
                                Workload Realignment business initiatives
                                implemented for the 2003 Filing Season.
                                However, there are remaining shortcomings with the
                                platform. . . ..
                        Not only did the implementation of the CC2001 cause a
                        dramatic increase in primary abandons, it also made the
                        contractor unable to provide data on the points in the menu
                        selection at which taxpayers hang up. These data were
                        available prior to implementation of the CC2001. Without
                        access to these data, it is more difficult for the IRS to
                        identify and modify the trouble spots in its menus. In our
                        report on the 2003 Filing Season,35 we stated:
                                The effect of the menu scripting problems on
                                increased taxpayer burden was evident from the


                        32
                           The CC2001 was a $65 million technology enhancement designed to
                        improve the efficiency and effectiveness of receiving, routing, and
                        responding to taxpayer calls.
                        33
                           The network prompter is the contractor public telephone network that
                        contains scripted routing plans. These plans determine what prompts
                        and announcements to play to the customer and how to route the
                        customer to the IRS.
                        34
                           IRS Network Prompter Replacement Plan, Joint Operations Center
                        (January 27, 2004).
                        35
                           Access to the Toll-Free Telephone System Was Significantly Improved
                        in 2003, but Additional Enhancements Are Needed (Reference
                        Number 2004-30-038, dated January 2004).
                                                                                      Page 14
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season

                                 usability study report36 for the 1040 line. The
                                 study,37 performed by a contractor in January 2003
                                 using a group of participants, found that problems
                                 with the “menu options” were, by far, the main
                                 complaint about the system.
                        In an effort to address various limitations with the current
                        platform, the IRS has issued a Request for Proposal for the
                        replacement of the network prompter. The proposal that the
                        IRS received is to introduce an Internet Service Node (ISN)
                        that, if acquired, will allow the IRS to capture data on the
                        points in the menu selection at which callers disconnect at
                        the network prompt.

                        Recommendation

                        1. The Directors, CAS, SB/SE and W&I Divisions, in
                           coordination with the IRS Modernization and
                           Information Technology Services organization, should
                           take the steps necessary to ensure the acquisition of the
                           ISN is a priority item. In addition, when the ISN is
                           installed, the Directors should ensure it is used to learn
                           more about the causes of primary abandons so necessary
                           changes to the menu scripts can be made or other
                           appropriate corrective actions can be taken.
                        Management’s Response: The Commissioner, W&I
                        Division, agreed with this recommendation, advising that
                        the IRS plans to fully deploy the ISN in early January 2005
                        and expects to realize some initial benefits of this additional
                        detailed information shortly after implementation. The
                        Commissioner advised that, after sufficient data are
                        collected and analyzed, IRS management will use it to first
                        identify the points at which customers abandon their calls
                        and then initiate changes to the system to improve the
                        customer experience.




                        36
                           SpeechWorks International, Inc., Test Results Usability Study
                        Version 1.0, February 24, 2003.
                        37
                           The contractor’s report on the results of the usability tests stated that it
                        was not intended to render statistically significant results or to study
                        trends.
                                                                                             Page 15
          Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                              During the 2004 Filing Season

                                  Forecasting involves using historical data, knowledge of
Modifying the Processes for
                                  current conditions, and information about future conditions
Workload Planning and
                                  to predict the customer demand for services. The
Scheduling Could Further
                                  forecasting of call demand must be accurate at each
Improve Taxpayer Access and
                                  CSR skill level for each half-hour call arrival interval.
Increase Efficiency
                                  Given the massive volume of calls the IRS receives and the
                                  wide range of telephone assistance it is expected to provide,
                                  even small forecasting inaccuracies can cause significant
                                  problems with the IRS’ ability to schedule resources to
                                  effectively and efficiently handle call demand. An
                                  authoritative text38 on call center operations management
                                  states:
                                          Skills-based routing is supposed to be the perfect
                                          answer to the challenge of getting the right call to
                                          the right place at the right time. But, in many cases,
                                          skills-based routing also has created difficult new
                                          problems that have tempered or obviated the
                                          potential benefits: difficult forecasting challenges,
                                          complex staffing puzzles and volatile service levels.
                                  One measure affected by inaccurate forecasting is Assistor
                                  Availability. When Assistor Availability is too low,
                                  taxpayers calling for assistance may have to wait longer to
                                  speak with a CSR or, frustrated with the waiting time, may
                                  abandon their calls and call back at another time. Low
                                  Assistor Availability over extended periods of time can also
                                  result in significant CSR stress since they are answering one
                                  call after another with little downtime. Conversely, when
                                  Assistor Availability is too high, the CSRs’ time is not
                                  being productively used since the CSRs are waiting for calls
                                  to arrive. According to an authoritative guide on call center
                                  operations,39 studies show that optimum availability is
                                  between 8 and 12 percent. Concerns with Assistor




                                  38
                                     Brad Cleveland and Debbie Harne, Call Center Operations
                                  Management Handbook and Study Guide (Annapolis, Maryland:
                                  Call Center Press 2003), Section 5, 38.
                                  39
                                     Brad Cleveland and Debbie Harne, Call Center Operations
                                  Management Handbook and Study Guide (Annapolis, Maryland:
                                  Call Center Press 2003), Section 4, 26-27.
                                                                                          Page 16
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season

                        Availability were included in our audit reports covering
                        both the 200240 and 200341 Filing Seasons.
                        The IRS made significant changes to the forecasting
                        process for Fiscal Year (FY) 200442 that included using
                        application-level historical data to project demand. In all
                        likelihood, these changes contributed to the reduced
                        Assistor Availability rate (see page 8) experienced by the
                        IRS this filing season. In addition, the IRS has processes in
                        place to make adjustments in reaction to actual customer
                        demand that differs from the forecast demand. While these
                        adjustments are generally effective in moving staff from
                        some applications where demand is lower to other
                        applications where it is higher, Assistor Availability
                        continues to vary widely among different applications and at
                        different time periods.
                        For example, Figure 1 shows the weekly variance (each
                        application ranged from 1 to 21 percent) in Assistor
                        Availability for 2 tax law applications. Application 102,
                        Deductions, was a new application for 2004 and
                        Application 110, Income, has not changed in several years.
                        These applications do not represent the most extreme
                        examples of high availability among the IRS’ many
                        applications but, rather, are intended to show that
                        availability varies by time period and application type.




                        40
                           Significant Efforts Have Been Made to Provide Taxpayers Better
                        Access to the Toll-Free Telephone System, But Additional Improvements
                        Are Needed (Reference Number 2003-30-001, dated October 2002).
                        41
                           Access to the Toll-Free Telephone System Was Significantly
                         Improved in 2003, but Additional Enhancements Are Needed
                        (Reference Number 2004-30-038, dated January 2004).
                        42
                           FY 2004 began on October 1, 2003, and ends on September 30, 2004.
                                                                                    Page 17
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season

                                           Figure 1: Comparison of Assistor Availability
                                                  for Two Tax Law Applications
                                                        2004 Filing Season


                                                                                                 Application 102
                                                                                                 Application 110
                             25%


                             20%


                             15%


                             10%          OptimumAvailability Range: 8%to 12%

                             5%


                             0%




                                                                                                                                                                                          04/16/04
                               01/10/04
                                          01/17/04
                                                     01/24/04
                                                                01/31/04
                                                                           02/07/04
                                                                                      02/14/04
                                                                                                  02/21/04
                                                                                                             02/28/04
                                                                                                                        03/06/04
                                                                                                                                   03/13/04
                                                                                                                                              03/20/04
                                                                                                                                                         03/27/04
                                                                                                                                                                    04/03/04
                                                                                                                                                                               04/10/04
                                                                                            Week Ending

                        Source: IRS Executive Level Report on Tax Law Performance.

                        Figure 1 shows that Assistor Availability in Application 102
                        was below the optimum level for 9 consecutive weeks
                        during the 2004 Filing Season. On the other hand, the
                        Assistor Availability in Application 110 was above the
                        optimum level in 8 of 15 weeks during the 2004 Filing
                        Season. During the week of March 13, 2004, CSRs
                        experienced 553 available hours in Application 110. This
                        represents 184 more available hours than would have been
                        experienced if the Assistor Availability had been at the
                        higher end (12 percent) of the optimum range.
                        Despite the recent enhancements to its forecasting process,
                        the IRS needs a more effective and efficient methodology.
                        Although most call centers in the private sector have had
                        automated workforce management (WFM)43 tools for years,

                        43
                          Software systems that are used to forecast incoming call demand,
                        calculate staffing requirements, organize schedules, and track real-time
                        performance of individuals and groups.
                                                                                                                                                                                          Page 18
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season

                        the IRS has continued to rely on an essentially manual
                        process for its workload planning. The IRS is currently
                        using a software product at the site level, with some success,
                        to match staffing requirements with individual CSR tours of
                        duty. However, the IRS has been unable to use this product
                        to develop forecasts and staffing requirements for the
                        Enterprise. The IRS staff responsible for workload planning
                        is involved in a number of preliminary processes to gather
                        the necessary data for developing projections of resource
                        requirements to meet the anticipated customer demand. The
                        forecasting process used for FY 2004 involved the
                        development of approximately 700 Microsoft Excel®
                        spreadsheets. When a change was made to one spreadsheet,
                        it required a manual verification process to verify that the
                        change was included on all affected spreadsheets. This
                        process is not only very time-consuming and
                        labor-intensive, it also is dependent upon a few vital staff
                        members with the requisite skills for this type of work. The
                        loss of one or more of these staff members could
                        significantly affect the forecasting process.44
                        The IRS plans to eventually acquire a complete WFM
                        system, at a cost of $12.5 million, to generate its staffing
                        requirements for the toll-free telephone system. This WFM
                        system can be obtained in stages. The IRS’ current budget
                        allows for obtaining, at a cost of $1.25 million, a WFM tool
                        that will only generate half-hourly staffing requirements for
                        workload planning at the Enterprise level. Other component
                        parts of the larger WFM system would allow for integration
                        of the forecasting and scheduling WFM functionality and
                        site-level scheduling process.
                        We were advised by JOC staff members that two of the
                        major advantages of the WFM system the IRS will be
                        procuring this year are that it will be designed to link
                        directly to the IRS Enterprise Telephone Data Warehouse


                        44
                          In reviewing a draft of this report, IRS management advised that,
                        while they do not disagree they need a more effective and efficient
                        methodology, improvement in telephone performance over the past few
                        years is evidence that their current forecasting and scheduling process is
                        effective. Management also stated that, while they expect to gain
                        increased effectiveness, the greater improvement opportunity lies in the
                        WFM software’s potential to improve the efficiency of the process.
                                                                                         Page 19
           Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                               During the 2004 Filing Season

                                   and will provide them with the ability to run “what if”
                                   scenarios (i.e., performance given staffing or staffing given
                                   performance). This should enable call site managers to
                                   better handle changes in demand because they will know
                                   how many CSRs will need certain types of training based
                                   upon the types of calls being answered. The IRS plans to
                                   run the WFM system parallel with the current manual
                                   planning system during its first year of use. If all goes well
                                   with the WFM system in FY 2005, the IRS plans to use it
                                   exclusively in FY 2006 and discontinue the use of its
                                   manual, labor-intensive process.

                                   Recommendation

                                   2. The Directors, CAS, SB/SE and W&I Divisions, should
                                      take the steps necessary to ensure implementation of an
                                      integrated WFM system that includes workforce
                                      planning functionality at the Enterprise and site levels.
                                   Management’s Response: The Commissioner, W&I
                                   Division, agreed with this recommendation and advised that
                                   full implementation of an integrated WFM system needs to
                                   be an incremental process. The Commissioner stated the
                                   existing site-level WFM tool is being upgraded in
                                   November 2004 and efforts are currently underway to test
                                   an Enterprise-level WFM tool. If test results are successful,
                                   the IRS intends to procure the product this fiscal year; this
                                   will be the foundation for further integration efforts. The
                                   Commissioner also stated that the IRS is targeting the
                                   testing and possible procurement of the additional
                                   integration tools during FY 2005 and that the IRS intends to
                                   have a fully integrated WFM system with workforce
                                   planning functionality for the Enterprise by the conclusion
                                   of FY 2006.
                                   During the biweekly executive telephone conferences held
Updated Circuitry Planning
                                   throughout the 2004 Filing Season, IRS managers
Standards Could Help to
                                   occasionally discussed situations in which some telephone
Alleviate Infrequent Capacity
                                   circuits45 were full. When high call volume occurs in
Problems
                                   specific applications or at certain call sites, the telephone
                                   circuits can become full and additional calls may be blocked


                                   45
                                        A circuit is a transmission path between two points in a network.
                                                                                                     Page 20
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season

                        from entering the system. This condition can occur for short
                        periods during high volume times of the day or during those
                        few days of the filing season when call volume is the
                        highest.
                        Insufficient circuits can adversely affect toll-free telephone
                        service in two ways. The first effect is on those taxpayers
                        who receive a recorded Courtesy Disconnect message that
                        all circuits are busy and that they should try to call back at
                        another time to receive assistance. The second effect is that
                        call screeners46 cannot receive calls when circuits are full
                        and, thus, experience unproductive available time. Having
                        more circuits available could reduce the number of blocked
                        calls and, in turn, reduce screener availability on some
                        occasions.
                        While we did not determine how often the IRS experienced
                        circuit capacity problems during the 2004 Filing Season,
                        IRS management advised us that they occurred only in parts
                        of a few days at some call sites. The IRS generally
                        performs its circuit usage analysis in real time, in an effort
                        to balance the call load among the sites. One method the
                        IRS uses is to put a site that is experiencing circuitry
                        problems on “available only” status so no additional calls
                        queue at that location.
                        The IRS recognizes that revised circuitry planning is needed
                        and has initiated steps toward developing a new circuitry
                        standard. Currently, the only standard the IRS has for
                        circuitry planning is a ratio of 1.5 circuits to 1 CSR at peak
                        staffing times. This standard was instituted several years
                        ago when IRS call processing was very basic and prior to
                        major changes to the call center environment such as
                        intelligent call management.
                        We were advised that a circuitry analysis has been requested
                        since the IRS no longer needs circuits at sites for automated
                        calls. The IRS asked for a circuitry analysis that would
                        identify a numeric formula tied to CSRs that the SB/SE and
                        W&I Divisions could use to increase or decrease staff at a
                        site. The IRS expects to complete this analysis in time to

                        46
                          A call screener is a specially trained CSR who answers the taxpayer’s
                        call, determines the specific question or issue, and then transfers the call
                        to the appropriate application.
                                                                                          Page 21
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season

                        install or remove circuits, as necessary, by the 2005 Filing
                        Season.
                        The IRS call center managers also recognize that circuitry
                        planning needs to be revisited after implementing major
                        changes to the toll-free telephone system. For example, if
                        the ISN is implemented as planned (see page 15), more
                        circuits will become available because excess trunks47 at
                        each site currently used for queuing would no longer be
                        needed.
                        More efficient and effective use of circuits will enable the
                        IRS to better meet the requirements of Section 204 of the
                        FY 2004 Appropriations Bill,48 which states:
                                 Funds made available by this or any other Act to the
                                 Internal Revenue Service shall be available for
                                 improved facilities and increased manpower to
                                 provide sufficient and effective 1-800 help line
                                 service for taxpayers. The Commissioner shall
                                 continue to make the improvement of the Internal
                                 Revenue Service 1-800 help line service a priority
                                 and allocate resources necessary to increase phone
                                 lines and staff to improve the Internal Revenue
                                 Service 1-800 help line service.

                        Recommendation

                        3. The Director, CAS, W&I Division, should ensure the
                           current circuitry analysis leads to the development of a
                           current standard for circuitry planning. This standard
                           should be updated whenever there are major changes to
                           the toll-free telephone system that could affect the
                           circuitry needs.
                        Management’s Response: The Commissioner, W&I
                        Division, agreed with this recommendation and advised that
                        the IRS is currently in the initial stages of developing a
                        circuitry standard. This standard will be finalized after IRS

                        47
                           A trunk is a telephone circuit linking two switching systems. Circuits
                        and trunks are often used interchangeably. However, there are
                        24 circuits to a T-1 trunk line.
                        48
                           Consolidated Appropriations Act, 2004, Pub. L. No. 108-199, 118
                        Stat. 318.
                                                                                        Page 22
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season

                        management analyzes the extent to which the ISN
                        implementation affects circuitry needs. The Commissioner
                        advised that, to develop a comprehensive standard, the IRS
                        will need to gather and analyze data for a complete year
                        after ISN implementation. The IRS expects to complete the
                        analysis and finalize the standard by January 15, 2006. The
                        Commissioner also advised that, in preparation for the
                        2005 Filing Season, the IRS will increase circuitry on
                        non-ISN product lines as needed to further alleviate the
                        possibility of infrequent circuitry capacity problems.




                                                                            Page 23
          Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                              During the 2004 Filing Season

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall audit objective was to evaluate the Internal Revenue Service’s (IRS) ability to
provide taxpayers with effective and efficient access to the toll-free telephone system during the
2004 Filing Season.1 We performed this audit as part of the Treasury Inspector General for Tax
Administration’s (TIGTA) continuing annual reviews2 of the performance of key customer
service programs.
To accomplish our objective, we:
I.      Reviewed the IRS’ plans for the toll-free telephone system for the 2004 Filing Season.
II.     Reviewed the IRS’ processes for promptly responding to taxpayer access problems with
        the toll-free telephone system.
III.    Evaluated any new business processes implemented by the IRS to improve taxpayer
        access to the toll-free telephone system.
IV.     Reviewed any recent productivity-related analyses on the toll-free telephone system
        conducted or planned by the IRS or its contractors.
V.      Reviewed and monitored the IRS performance measures for the toll-free telephone
        system.
VI.     Attended biweekly executive status meetings held by the IRS for the toll-free telephone
        system.




1
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
All references to the 2004 Filing Season made in this report, unless otherwise specified, are for the period from
January 1 to April 17, 2004.
2
  Separate TIGTA reviews are being performed to evaluate the quality of services provided to taxpayers who called
the toll-free telephone system (Audit # 200440038; draft report issued July 12, 2004) and to evaluate a feasibility
study on the potential outsourcing of tax law calls (Audit # 200330043).




                                                                                                           Page 24
          Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                              During the 2004 Filing Season

VII.    Determined whether the IRS has taken sufficient corrective actions as a result of the
        TIGTA audit report3 on the need to provide improved toll-free telephone access for
        hearing- and speech-impaired taxpayers.
VIII.   Coordinated, as needed, with another TIGTA audit team that was reviewing the quality of
        service4 provided on the toll-free telephone system and with the Government
        Accountability Office (GAO)5 staff responsible for the toll-free telephone portion of the
        GAO’s annual filing season audit.




3
  The Internal Revenue Service Has Opportunities to Provide Hearing- and Speech-Impaired Taxpayers With Easier
Access to Toll-Free Telephone Services (Reference Number 2003-30-111, dated May 2003).
4
  TIGTA Audit # 200440038 (draft report issued July 12, 2004).
5
  Formerly the General Accounting Office.




                                                                                                     Page 25
        Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                            During the 2004 Filing Season

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
William E. Stewart, Audit Manager
Karen J. Stafford, Lead Auditor
Debra D. Mason, Auditor




                                                                                       Page 26
        Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                            During the 2004 Filing Season

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Small Business/Self-Employed Division SE:S:CAS
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Deputy Director, Accounts Management, Small Business/Self-Employed Division
SE:S:CAS:AM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       GAO/TIGTA Liaison, Wage and Investment Division SE:W
       Director, Customer Account Services, Small Business/Self-Employed Division
       SE:S:CAS
       Director, Customer Account Services, Wage and Investment Division SE:W:CAS




                                                                                  Page 27
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season

                                                               Appendix IV


           Management’s Response to the Draft Report




                                                                        Page 28
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season




                                                                        Page 29
Taxpayers Experienced Improved Access to Toll-Free Telephone Services
                    During the 2004 Filing Season




                                                                        Page 30
